No.

3(n

Supreme Court of tf)e ®ntte& g>tateo
JERRY W. WELLS,
Petitioner,
v.

ROBBIN NELSON, ROBERT A. SHARP JR.,
HEATHER ANNE GREENE SHARP,
Respondents.

On Petition For Writ Of Certiorari
To The Kentucky Supreme Court

PETITION FOR WRIT OF CERTIORARI

Jerry W. Wells (pro se)
P.O. Box 159175
Nashville, TN 37215
270-392-0461
welljw@aol.com
August 24, 2020

received

AUG 2 8 2020
supreme"COURTLUIrK

1

QUESTIONS PRESENTED FOR REVIEW
In Nelson v. Sharp the Kentucky Supreme Court
denied a rehearing after upholding the Kentucky
Court of Appeals ruling on jurisdiction, denial of writ
of prohibition/mandamus, passed on the merits to al­
low correction to the record whereby de facto status
and custody were previously awarded to petitioner
with his spouse, passed on the merits to admit the
lower court original transcript in support of peti­
tioner’s status, and failed to address the use of a for­
ward related order by the Kentucky Court of Appeals.
Petitioner now files for this writ of certiorari to address
the use of the UCCJEA to deny the jurisdiction of a
sister state during the pendency of an adoption, an is­
sue which is split among the circuits, and which is in
contravention of Federal Law, the UCCJEA act itself,
and the UCCJEA codified state statutes, and to ad­
dress actions of the judiciary using non-existent orders
which invalidate rulings and which appear incon­
sistent with the requirements under the Code of Con­
duct for United States Judges.
Thus, the questions presented in this petition,
which would resolve the national jurisdictional split on
the issue of the application of the UCCJEA during
adoptions and correct the abuse of discretion and in­
trusion of the judiciary to constitutionally protected
rights, as well as address the appearance of judicial
misconduct are:
1.

Can an original decree state, having lost per­
sonal and subject matter jurisdiction for

11

QUESTIONS PRESENTED FOR REVIEW
- Continued
purpose of an adoption pursuant to its own
state statute, KRS 199.470(1), and in contra­
vention of the PKPA, Title 28 U.S.C.A.
§ 1738A, the Supremacy Clause of the US
Constitution, Article VI, Clause 2, the 14th
Amendment, the UCCJEA act itself, respec­
tive state statutes, and the adoption code of
the respective states, use the UCCJEA to
deny and usurp the jurisdiction of a sister
court who has correctly and statutorily ex­
erted personal and subject matter jurisdiction
over an adoption consistent with the man­
dates under the US Constitution, Article IV,
Section 1, under the PKPA, Title 28 U.S.C.A.
§ 1738A (f)(g)(h), the Supremacy Clause of
the US Constitution, Article VI, Clause 2, the
14th amendment, the state’s codified
UCCJEA, and the state’s adoption code, and
subsequently relitigate a matter previously
adjudicated during the adoption, allowing a
party to file for a change in custody, sans
grounds, during the pendency of an adoption
and engage in an abuse of discretion with
questionable conduct suggestive of ex-parte
communications and preferential treatment
denying petitioner’s status, previously con­
ferred by the court, and denying petitioner’s
fundamental rights and due process to partic­
ipate in a change of custody proceeding?
2.

Should this Court reverse and vacate all or­
ders issued from the original decree state be­
ginning with the Sua Sponte order of June 8,

Ill

QUESTIONS PRESENTED FOR REVIEW
- Continued
2016 and all subsequent orders and interven­
ing decisions based on lack of jurisdiction, the
violation of federal and state statutes and in­
terference with the fundamental rights and
due process to the parents both natural and
de facto, and misconduct by the judiciary, sim­
ultaneously setting aside the order of dismis­
sal of the adoption in the sister state to
preserve the proper administration of justice?

IV

PARTIES TO THE PROCEEDING
Petitioner is Jerry W. Wells, the spouse of Robbin
K. Nelson, step-father to Robert A. Sharp Jr., stepgrandfather to AKS and RAS III, and received, with his
wife, based on the court’s findings in the original action
in Kentucky de facto status and sole, permanent cus­
todian of the minor children AKS and RAS III. Wells
was a petitioner with his wife and co-petitioner Robert
Sharp and presumptive adoptive father in the adop­
tion action in Tennessee and sought to intervene as a
petitioner in the change in custody action filed in Ken­
tucky during the pendency of the adoption after he was
excluded from participation in a UCCJEA hearing
which was occurring between both states.
Respondent Robbin K. Nelson, spouse to Jerry W.
Wells, natural mother to Robert A. Sharp Jr., paternal
grandmother, de facto custodian, and presumptive
adoptive mother to AKS and RAS III. Nelson was a pe­
titioner in the original action in Kentucky as well as
the adoption action in Tennessee.
Respondent Robert A. Sharp Jr., son of Robbin
Nelson, step-son of Jerry W. Wells, natural birth father
to AKS and RAS III, and ex-husband to Heather Sharp.
R. Sharp was a respondent in the original action in
Kentucky where he transferred sole permanent cus­
tody to Nelson and Wells by Agreed Order and a co­
petitioner in the adoption action in Tennessee. R.
Sharp also participated in the change in custody action
filed by his ex-wife in Kentucky during the pendency
of the adoption.

V

PARTIES TO THE PROCEEDING - Continued
Heather Anne Greene Sharp, ex-wife to Robert A.
Sharp Jr. and natural birth mother to AKS and RAS
III. H. Sharp was a respondent in the original action in
Kentucky where she transferred sole permanent cus­
tody to Nelson and Wells by Agreed Order, and a re­
spondent in the adoption action in Tennessee. She filed
to hold Nelson in contempt in Kentucky during the
pendency of the adoption regarding a visitation issue
already adjudicated in the adoption and also filed a
change in custody in Kentucky during the pendency of
the adoption sans grounds and based on a petition con­
taining numerous misrepresentations.
RULE 29.6 STATEMENT
Pursuant to Rule 29.6, the petitioner is an individ­
ual, thus there are no disclosures to be made by him.
DIRECTLY RELATED PROCEEDINGS
Nelson v. Sharp, No. 14-CI-00479 (judgment en­
tered May 15,2014) whereby birth parents transferred
sole permanent custody of the minor children to Nelson
and Wells via an Agreed Order, affirmed by the Court.
Judgement entered (November 3, 2015) allowing Nel­
son and Wells who had provided notice to the court re­
garding relocation to Tennessee (on May 25, 2015), to
remain in Tennessee. Sua Sponte order entered (June
8,2016) during the pendency of an adoption hearing in
Tennessee. Sua Sponte order entered (March 21, 2017)

VI

DIRECTLY RELATED PROCEEDINGS
- Continued
removing the children from the custody of Nelson and
Wells and granting birth mother temporary custody.
Judgement holding Nelson in contempt of court
(March 20, 2017) with four subsequent sua sponte Or­
ders on contempt with bench warrants, Order denying
Wells Intervention (October 9,2018) and final order of
custody February 2020.
Nelson, Wells, with co-petitioner Sharp u. Sharp,
No. 15A118 (adoption action filed Nov 25, 2015) in
Tennessee, judgement asserting continuing exclusive
jurisdiction (May 17, 2016), judgement suspending
birth mother’s visitation (May 17, 2016), judgment re­
instating birth mother’s visitation with changes per
birth mother’s request (June 3, 2016), judgement stay­
ing adoption petition (September 6, 2016), judgement
dismissing the adoption entered May 30, 2019.
Wells v. Holderfield, No. 2018-CA-001467-OA (judg­
ment entered Oct. 31, 2019).
Wells v. Holderfield, No. 2019-SC-000093-MR (judg­
ment entered Mar. 26, 2020).

Vll

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW........
1
PARTIES TO THE PROCEEDING.......................

IV

RULE 29.6 STATEMENT......................................

V

DIRECTLY RELATED PROCEEDINGS.............

V

TABLE OF CONTENTS........................................

Vll

TABLE OF AUTHORITIES...................................

XI

PETITION FOR WRIT OF CERTIORARI...........

1

OPINIONS BELOW................................................

1

STATEMENT OF JURISDICTION......................

2

CONSTITUTIONAL AND STATUTORY PROVI­
SIONS INVOLVED..............................................

2

STATEMENT OF THE CASE...............................

2

A. Introduction..................................................
B. Factual and Procedural Background.........
C. Visitation Issue Adjudicated in Tennessee
with Simultaneous Contempt of Court
Filed in Kentucky........................................
D. Jurisdictional Conflict Created.................
E. Kentucky Resumes Jurisdiction under the
UCCJEA.......................................................
F. Petitioner’s Motion to Interview................

2
6

11
12
14
17

Vlll

TABLE OF CONTENTS - Continued
Page
REASONS FOR GRANTING THE PETITION... 19
THE COURT SHOULD GRANT REVIEW TO
ADDRESS THE CIRCUIT SPLIT CONCERN­
ING THE APPLICATION OF THE UCCJEA
ACT DURING AN ADOPTION, THE ASSOCI­
ATED VIOLATIONS OF FEDERAL LAW DUR­
ING SUCH INCLUSION, TO CORRECT THE
ABUSE OF DISCRETION BY COURTS TO IM­
PACT A FUNDAMENTAL RIGHT AND TO AD­
DRESS THE APPEARANCE OF JUDICIAL
MISCONDUCT.................................................... 19
I. THERE IS A SQUARE, ENTRENCHED,
AND OPENLY ACKNOWLEDGED CIR­
CUIT SPLIT ON THE QUESTIONS PRE­
SENTED .......................................................
II. THE KENTUCKY SUPREME COURT’S
DECISION IS ERRONEOUS. THE KEN­
TUCKY SUPREME COURT’S DECISION
CONTRAVENES THE CONSTITUTIONAL
FUNDAMENTAL RIGHTS OF THE PAR­
TIES AND FAILS TO RECOGNIZE THE
LOSS OF SUBJECT MATTER JURIS­
DICTION ......................................................
III. THE KENTUCKY SUPREME COURT’S
DECISION IS ERRONEOUS. THE AC­
TIONS OF THE KENTUCKY SUPREME
COURT CONTRADICT FAIR PLAY AND
SUBSTANTIAL JUSTICE..........................
CONCLUSION........................................................

19

23

26
27

IX

TABLE OF CONTENTS - Continued
Page
APPENDIX
Memorandum Opinion Of The Court Affirming
(March 26, 2020).............................................. App. 1
Order Passed to the Consideration of the Merits
of Appeal for correction of the record, file an
amended appeal following correction of the
record, submission of certified transcript of
lower court in support of Wells reply brief (Au­
gust 26, 2019)
App. 11
Order Denying Motion For Reconsideration And
Extraordinary Writ (January 9, 2019)......... App. 13
Order Denying Jerry Wells’ Motion To Intervene
(October 9, 2018)
App. 18
Order Denying Motion For Intermediate Relief
(October 8, 2018)
App. 20
Order Granting Temporary Custody (March 21,
App. 25
2017)
Sua Sponte Order (Kentucky) (June 8, 2016)... App. 27
Order Appointing Guardian Ad Litem And Sus­
pending Visitation (Tennessee Adoption Ac­
tion) (May 17, 2016)
App. 29
Order on Relocation Of State (November 2,
2015)
App. 33
Findings of Fact and Conclusions of Law And
Judgement of De Facto And Permanent Cus­
tody (May 14, 2014)
App. 35
Agreement of De Facto Custodian Child Cus­
tody And Child Support (April 30, 2014)..... App. 40

X

TABLE OF CONTENTS - Continued
Page
Order Denying Petition For Rehearing And Sua
Sponte Correcting Style of Case (March 26,
2020)
App. 45
Judge Catherine Rice Holderfield Response to
Kentucky Supreme Court (June 11, 2019).... App. 47
Fax received on March 16, 2017 at the minor
children’s private school The Covenant School
in Nashville, TN from a public school in Bowl­
ing Green, Kentucky prior to the Sua Sponte
Order Granting Temporary Custody on March
21,2017 (March 16, 2017)
App. 64
Certified Transcript of May 6, 2014 Initial Cus­
tody Hearing,
App. 66
Constitutional and Statutory Provisions In­
volved
App. 81

XI

TABLE OF AUTHORITIES
Page
Cases
Duncan v. O’Nan, Ky., 451 S.W.2d 626 (1970)....

18

In re Adoption of Baby E.Z., 266 P.3d 702 (Utah
2011)................................................................... 20,21
Int’l Shoe Co. v. State of Wash., Office of Unem­
ployment Comp & Placement, 326 U.S. 310
(1945)..................................................................
J.G. v. J.C., 285 S.W.3d 766 (Ky. App. 2009)........
Krieger v. Marvin, 2018-SC-00154-DGE.............
Link v. WabashR.R. Co., 370 U.S. 626 (1962).....
Troxel v. Granville, 530 U.S. 57 (2000)................
Weller v. Weller, 960 P.2d 493 (Wyo. 1998)..........

26
8,17
8,17
12
7
25

Williams v. Bittle, 299 S.W.3d 284 (Ky. App.
18,19,21,22,23
2009)
Constitutional Provisions
U.S. CONST, art. IV, Section 1 Full Faith and
Credit Clause
passim
U.S. CONST, art. VI, Clause 2, Supremacy
passim
Clause
U.S. CONST, amend. XIV, Equal Protection Due
passim
Process Clause
Federal Statutes
28 U.S.C. A. § 1738A (PKPA)

passim

Xll

TABLE OF AUTHORITIES - Continued
Page
State Statutes
Kentucky Revised Statutes (KRS)
199.470(1)...................................

9, 24, 25

403.270.......................................

17

403.270(l)(a)...............................

8
24

403.270(1X6)...............................
Tennessee Code Annotated (TCA)
36-l-116(f)(l)..............................
36-l-117(g)..................................

10

36-6-16(a)....................................

10

36-6-201......................................

10

10

Other Authorities
Code of Conduct for United States Judges.

4, 26, 27

Model Code of Judicial Conduct Canon 2A
(1990)........................................................

12,15, 27

Uniform Child Custody Jurisdiction And En­
forcement Act (UCCJEA)
passim

1
PETITION FOR WRIT OF CERTIORARI
Jerry W. Wells respectfully petitions for a writ of
certiorari to review the judgment of the Kentucky
Supreme Court in the Sixth Circuit.

OPINIONS BELOW
The Kentucky Supreme Court final opinion deny­
ing rehearing and sua sponte correcting style of case,
of March 26, 2020 App. 45, is a non-published opinion.
The Kentucky Supreme Court memorandum opinion
of the court affirming, of March 26, 2020 App. 1 is a
non-published opinion. The Kentucky Court of Appeals
order denying motion for reconsideration and extraor­
dinary writ of January 9,2019, App. 1-37 is a non-pub­
lished opinion. The Kentucky Supreme Court order
denying correction of the record, submission of trial
transcript, and amended brief of August 26, 2019 App.
1-37 is a non-published opinion. The Kentucky Court
of Appeal order denying motion for intermediate relief,
of October 8, 2018, App. 1-37 is a non-published opin­
ion. The lower court’s order denying Jerry Well’s mo­
tion to intervene, of October 9,2018, App. 1-37 is a nonpublished opinion. The lower court’s sua sponte order
awarding temporary custody to birth mother March
21, 2017, App. 1-37. Sua Sponte Order June 8, 2016,
App. 1-37. Tennessee Order Appointing Guardian Ad
Litem and Suspending Visitation May 17, 2016, App.
1-37 (sealed adoption record). Order on Relocation Of
State on November 3,2015, App. 1-37. Findings of Fact

2

and Conclusions of Law and Judgment of De Facto and
Permanent Custody, (sealed) May 15, 2014, App. 1-37.
Agreement of De Facto Custodian Child Custody and
Child Support May 1, 2014, (sealed) App. 1-37.

STATEMENT OF JURISDICTION
The Kentucky Supreme Court in the Sixth Circuit
issued its decision on August 26, 2019, App. 1-37, and
denied rehearing on March 26,2020, App. 113-14. This
Court has jurisdiction under 28 U.S.C. § 1257(a).

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
The Constitutional and Statutory Provisions In­
volved are reproduced in the Appendix.

STATEMENT OF THE CASE
A. Introduction
The Full Faith and Credit Clause found in the US
Constitution, Article IV, Section 1 addresses the duties
that states within the United States have to respect
“public acts records, and judicial proceedings of every
other state.” It does not provide for any preemption by
state laws.

3

The accompanying federal statute referred to as
the Parental Kidnapping and Prevention Act (PKPA)
found in Title 28 U.S.C.A. § 1738A requires every state
to give full faith and credit to the custody determina­
tions of another state, and to not modify those deter­
minations except as provided in subsections (f), (g),
and (h) of this section. This constitutional provision ex­
plicitly allows another state to modify the custody de­
termination of another state in certain circumstances,
defines “home state,” for purposes of jurisdiction,
preempts the Uniform Child Custody Jurisdiction En­
forcement Act (UCCJEA) in regard to adoption juris­
diction, precludes the relitigation of a controversy
already decided elsewhere, and makes no provision for
simultaneous proceedings.
The Supremacy Clause found in the US Constitu­
tion, Article VI, Clause 2, establishes that the federal
constitution and federal law generally, take precedence
over state laws, and even state constitutions. It prohib­
its states from interfering with the federal govern­
ment’s exercise of its constitutional powers, and from
assuming any functions that are exclusively entrusted
to the federal government.
The 14th Amendment of the U.S. Constitution
guarantees a “fundamental right” to parents. This due
process clause, which extends to individuals where
state statutes grant and treat de facto status equal to
a parent, prohibits governmental interference by a
court’s intrusion to these fundamental rights, and can
only be interfered with only in limited circumstances.
This Amendment does not provide for interference by

4
a court when the intrusion constitutes an abuse of the
court’s discretion to impact a fundamental right, in­
cluding violation of federal laws, acting in contraven­
tion of its own statutes or in the absence ofjurisdiction,
issuing sua sponte orders during the pendency of an
adoption proceeding in a sister state, providing infor­
mation to a Judge in the sister state which is not fac­
tual, writing orders and allowing orders to be written
by certain counsel on behalf of the judge containing
multiple material misrepresentations, and acting with
an overt appearance of anger, bias and lack of detached
neutrality.
The Uniform Child Custody Jurisdiction and En­
forcement Act, (UCCJEA) is an act which was put in
place to deter interstate parental kidnapping and pro­
mote uniform jurisdiction and enforcement provision
in interstate child-custody and visitation. The act does
not apply to adoptions, and while some states, such as
Utah and Oklahoma, have determined the UCCJEA
does not cover termination of parents’ rights due to
adoption proceedings because the UCCJEA explicitly
excludes adoption proceedings, other states, in contra­
vention of the act itself as well as its codified version of
the UCCJEA within its state statutes, apply the
UCCJEA to adoptions citing adoption as a change in
custody. As a result, the circuits are split on this issue.
The Code of Conduct for United States Judges ap­
plies to United States circuit judges, district judges,
Court of International Trade judges, Court of Federal
Claims judges, bankruptcy judges, and magistrate
judges. Certain provisions of this Code apply to special

5

masters and commissioners as indicated in the “Com­
pliance” section. The Tax Court, Court of Appeals for
Veterans Claims, and Court of Appeals for the Armed
Forces have adopted this Code. This Code mandates
judges must uphold the law and requires supervisory
judges to address issues of activities in contravention
of the Code.
In Nelson v. Sharp 2019-SC-00093, the Kentucky
Supreme Court denied petitioner’s petition for rehear­
ing following the issuance of an order upholding the
appellate court and lower court’s ruling regarding ju­
risdiction where the UCCJEA was applied in contra­
vention of its own state statutes and during the
pendency of an adoption action in a sister state, passed
on the merits to allow the admittance of the lower
court trial transcript in support of petitioner’s status
where he qualifies as “single-unit” with his spouse and
the lower court granted him, along with his wife,
defacto status and sole, permanent custody, passed on
the merits to allow a correction to the record based on
the court’s findings, essentially denying petitioner due
process of a fundamental right to intervene in a change
of custody action for children who had been in his cus­
tody since they were infants and in the process of
adopting, and refused to address the use of a forward
related order1 written by the appellate court.
1 Forward related order is defined by petitioner as an order
written by the Kentucky Appellate Court Judge Joy Kramer on
October 8, 2018 denying petitioner’s Writ of Mandamus in which
a reference is made to the October 9, 2018 order written by the
lower court Judge Catherine Rice Holderfield and entered by the

6

The error of the lower court began when a sua
sponte order was entered on June 8, 2016 in the origi­
nal decree state pursuant to the UCCJEA to regain ju­
risdiction during the pendency of an adoption
proceeding in a sister state creating a jurisdictional
conflict. This sua sponte order, which is a due process
violation on its face, is erroneous as it conflicts with
federal law as well as its own state statutes, and is an
infringement of a fundamental right of the parties in­
volved in the adoption. This issue of application of the
UCCJEA during an adoption in contravention of fed­
eral law and state statutes has created a split among
the circuits, thus is of such national importance that it
warrants review to ensure uniformity in the admin­
istration ofjustice during adoption proceedings among
the circuits throughout the entire United States. Fur­
thermore, the departure from the accepted and usual
course of judicial proceedings, which appears to in­
clude ex-parte communications, preferential treat­
ment, and use of non-existent orders by the judiciary,
and refusal by a supervisory court to even acknowledge
this issue, calls for an exercise of this Court’s supervi­
sory power.
B. Factual And Procedural Background
The minor children AKS and RAS III were born in
Tennessee during the marriage to natural parents,
Robert and Heather Sharp in 2010 and 2012
Warren Circuit District Court on October 9,2018. Judge Kramer’s
order, at the time it was written, is essentially based on a non­
existent order, giving the appearance of ex-parte communications
between the courts.

7
respectively. The parents experienced difficulty in rais­
ing the children; therefore, they with clear evidence,
based on the knowing and voluntary ceding of superior
custodial rights, which is their constitutional right,
Troxel v. Granville, placed the minor children at ages 4
and 6 weeks respectively into the physical custody of
petitioner Jerry Wells and his wife Robbin Nelson,
(Agreement of De Facto Custodian Child Custody and
Child Support Order pg. 2, para. 2, “The parties agree
that both R.A.S. Ill and A.K.S. have resided with Rob­
bin Nelson since they were weeks old and that Robbin
Nelson has primarily provided for these minor chil­
dren’s financial and nurturing care.”). App. 40. Peti­
tioner and his wife literally stood in place of the
parents assuming primary caretaking and sole finan­
cial support of the children spending time at their
homes in Tennessee and Kentucky; residences pur­
chased prior to the births of the children.
Based on continued issues with the parents, who
now resided full time in Kentucky, and their inability
to care for the children, Petitioner and his wife sought
to legalize their relationship with the minor children;
thus, the parties, which was their right (Troxel v. Gran­
ville, Art IV sec 1, 14th Amendment) entered into an
Agreed Order,2 (Agreement of De Facto Custodian
Child Custody and Child Support Order filed in Ken­
tucky on May 1, 2014). App. 40. A hearing was held
with Petitioner and his wife in attendance while the
2 Counsel mistakenly advised that only a single individual
could apply for De Facto custody; thus petitioner’s name was not
included on the petition.

8

parents, despite being notified of the hearing, did not
attend. The Court took testimony made findings of fact
as reflected in the certified trial transcript page 13,
lines 7-9, “Okay. And so, I am going to grant the de
facto custody and status to you and your husband and
also permanent custody at this time.” App. 66. The
court entered Findings of Fact and Conclusions of Law
And Judgement of De Facto and Permanent Custody
on May 14, 2014. App. 35. Despite the findings of the
court regarding petitioner’s standing, his name was
mistakenly excluded from the final order; however, this
issue pursuant to J.G. v.J.C., 285 S.W.3d 766, 768 (Ky.
App. 2009) as discussed in the recent 2019 Kentucky
Supreme Court case of Krieger v. Marvin, Page 6 de­
fines a married couple as a “single unit” for purposes of
de facto status. Accordingly, petitioner unequivocally
has standing based on ceding of superior custodial
rights by the parents, his actions as a parent, case law
which determines a “single unit” based on his mar­
riage, findings in the court record, and statutory qual­
ifications as provided under KRS 403.270(l)(a).
Birth mother, on or around November of 2014,
filed a motion to change custody making the material
misrepresentation in the pleading that de facto custody
had been obtained based on “fraud” and “changed cir­
cumstances,”3 and simultaneously filed for visitation.
3 Birth mom, Heather Sharp testified on May 19, 2017 “there
was no fraud, she agreed to it, thought it was a good idea but just
changed her mind.” In her deposition of March 19, 2017 Heather
Sharp admitted “there were no changed circumstance.” In short,
birth mom lacked any basis to move the court for a change in cus­
tody and her petition was vexatious and constitutes harassment.

9
Hearings to address these motions were conducted on
January 30,2015 and February 5,2015 resulting in an
order for visitation to birth parents.
On May 25,2015, petitioner and his wife relocated
the children to the Tennessee residence permanently
to meet their medical and educational needs. While not
required, notice was provided to the court and the birth
mother objected to the relocation. A hearing was held
on or around June 2015 overruling the mother’s objec­
tion. The court entered an Order on Relocation Of
State on November 3,2015 ending all litigation in Ken­
tucky. App. 33.
After the children had resided in Tennessee for
greater than six months, the de facto guardians sought
to register the Kentucky custody order. The de facto
guardians were advised by Tennessee Counsel they
had an option to adopt based on the ceding of parental
rights, and the permanent custody transfer per the
Agreed Order. App. 40. Kentucky, pursuant to the
PKPA, subsections (f) (g) and (h) and KRS 199.470(1)
lost subject matter jurisdiction to hear an adoption
since the parties had resided, with the court’s permis­
sion, outside the state for over six months and were in
a new “home state.” PKPA. Wishing to legitimize the
family unit in existence for over 5 years, petitioner
Jerry Wells, and his wife filed a petition for Guardian­
ship, Termination of Parental Rights and Adoption on
November 25, 2015 in Tennessee. The natural father

10
consented to the adoption,4 based on T.C.A. 36-l-117(g),
and filed as a co-petitioner with the de facto custodi­
ans, which is consistent with the 14th Amendment.
Birth mother refused to discuss the issue but was pro­
vided notice consistent with the PKPA requirements.
Birth mom did not contest jurisdiction of the Tennes­
see Court.
Tennessee’s ability to modify the original decree
state’s custody order falls within subsections (f), (g)
and (h) of the PKPA at 28 U.S. Code § 1738A. There
was no requirement for a UCCJEA hearing between
the states as the PKPA supersedes the UCCJEA. The
Tennessee Court, correctly and legally, pursuant to
TCA § 36-l-116(f)(l), exercised exclusive jurisdiction
of all matters pertaining to the children. The filing of
the Petition constituted the commencement of a cus­
tody proceeding for purpose of the UCCJEA codified in
TCA § 36-6-201 as Tennessee was now the “home state”
pursuant to TCA 36-6-16(a) since the date the Petition
was filed and the “home state” consistent with the
PKPA definition. Once Tennessee exercised jurisdic­
tion, Kentucky lost all jurisdiction under the PKPA
and the exclusive, continuing jurisdiction under the
UCCJEA as the UCCJEA act and the codified
UCCJEA within the Kentucky statutes unambigu­
ously excludes adoptions (UCCJEA § 103). The Ten­
nessee Court found that the birth mother had clearly
and unequivocally abandoned the children. The birth
4 The natural parents separated in or around October 2013
and eventually divorced which was finalized in or around July of
2015.

11
mother appealed and the Tennessee Appeals Court up­
held the lower court’s finding with only the best interest
hearing remaining before finalization of the adoption.5
C. Visitation Issue Adjudicated in Tennessee
with Simultaneous Contempt of Court
Filed in Kentucky.
During the pendency of the adoption, the birth
mother overdosed the minor children with medication
during visitation. After being advised by a school
teacher and school LCSW who believed the children
were in danger in mom’s custody de facto custodian
sought a protective order on behalf of the children from
the night court commissioner in Tennessee. The night
court commissioner refused to issue an order of protec­
tion because the custody order was not certified; how­
ever, directed the de facto custodian to protect the
children withholding visitation or have them taken
into foster placement, and to have counsel address this
issue during the adoption action. Simultaneously, the
birth mom, during the pendency of the Adoption, filed
a motion to have the de facto custodian held in con­
tempt of court in the Kentucky Court because of
missed visitation. The Tennessee Court, on May 17,
2016 entered an Order Appointing Guardian Ad Litem
And Suspending Visitation. App. 29. This matter was
adjudicated in Tennessee resulting with birth mom re­
suming visitation; however, with modifications of the
previous Kentucky order per her request.
5 This was an open adoption where the parents would still be
able to exercise visitation with the children.

12
D. Jurisdictional Conflict Created
During the pendency of the adoption, after Ten­
nessee had exerted jurisdiction, the Kentucky court is­
sued a Sua Sponte order on June 8, 2016. The
comments within this order are not based on any evi­
dence rather are opinions “the proposed adoptive par­
ent has failed to comply with this Court’s orders,” (App.
27) “may be evading service,” (App. 27). Even more
egregious is when the court writes “obtained de facto
custody under somewhat questionable but reportedly
agreed circumstances,” (App. 27). This statement di­
rectly contradicts the Agreed Order made April 30,
2014 between the parents and de facto custodian (App.
40) as well as the evidence, findings, and rule of law
from the court’s own order of May 14, 2014 (App. 35).
The Supreme Court has held that a court’s power to
raise a motion sua sponte turns on whether it is exer­
cising an “inherent power . .. necessarily vested in
courts to manage their own affairs so as to achieve the
orderly and expeditious disposition of cases,” {Link v.
Wabash). As this action implicates the constitutional
rights as afforded under the 14th Amendment of the
litigants in this case, the Kentucky court is without
power to raise a motion sua sponte. Additionally, these
comments suggest prejudice to a particular party and
is the beginning of continued judicial abuse and mis­
conduct where the judge fails to “respect and comply
with the law” as required under the Model Code of Ju­
dicial Conduct Canon 2A (1990). Evidence throughout
the case suggests the judge is working in tandem with

13
birth mom’s Counsel Casey Hixson in Kentucky,6 to
disrupt the adoption, including having the de facto cus­
todian served for show cause contempt motion in the
middle of a deposition for the adoption at the office of
Tennessee counsel for birth mom on July 21, 2016.
The de facto custodian made a special appearance
in Kentucky after being served and contested the ju­
risdiction of the Kentucky court. The Kentucky court
ruled the service was invalid but proceeded, in contra­
vention of special appearance to serve the de facto cus­
todian to return to court in Kentucky to face these
allegations of contempt. These actions are in contra­
vention of Title 28 U.S.C.A. § 1738A which precludes
the relitigation of a controversy already decided else­
where, makes no provision for simultaneous proceed­
ings, and is without merit due to lack of jurisdiction of
the Kentucky Court.
To complicate this case further, birth mother
through counsel, during the pendency of the adoption
case filed for a change in custody once again citing
“changed circumstances.” The de facto custodians con­
tested the jurisdiction of the Kentucky court resulting
in a UCCJEA conference between the two judges
6 A whistleblower lawsuit (Carr v. Holderfield 18-CI-1518)
alleging official misconduct, including abuse of authority, exparte communications and preferential treatment with certain at­
torneys, was filed by the former Family Court Clerk Leslie Carr
against the lower family court judge, Catherine Rice Holderfield.
The actions by Judge Holderfield in Nelson v. Sharp 14-CI-00479
appear to substantiate the official misconduct alleged in Carr v.
Holderfield.

14
which began with a conference call and parties in at­
tendance in various locations. Unable to view docu­
ments, the parties were instructed to appear in
Kentucky to complete the UCCJEA hearing. Petitioner
was asked to leave the courtroom in Kentucky despite
being a party to the case in Tennessee. From that point
on December 27, 2016 Petitioner has been excluded as
a participant in the hearings in violation of the 14th
Amendment.
E. Kentucky Resumes Jurisdiction under the
UCCJEA.
The UCCJEA hearing was continued at which
point the judges held a phone conference excluding all
the parties in violation of their due process rights un­
der the 14th Amendment. A motion was filed to correct
this error thus the judges held a second hearing which
was recorded on video. The litigants were prohibited
from being in attendance at this hearing in violation of
their due process rights under the 14th Amendment.
Had the litigants been allowed to attend they could
have corrected the multiple misrepresentations made
by the Kentucky court based on evidence from prior
hearings. Based on erroneous information and allow­
ing Kentucky to invoke exclusive continuing jurisdic­
tion under the UCCJEA, Tennessee stayed the
adoption to allow the custody hearing in Kentucky
which began on December 27, 2016. This action is in
contravention of both state statutes as the UCCJEA
does not apply to adoptions, as well as the PKPA, Full
Faith and Credit Clause and 14th Amendment.

15
On December 27, 2016, the de facto custodian was
injured in an accident on the way to court fracturing
her leg, ankle and detaching all the ligaments and ten­
dons from the exterior side of the left ankle. The de
facto custodian delayed medical treatment appearing
in court because of the past issues related to contempt
of court. During testimony the de facto custodian told
the court she thought she had “broken her ankle” yet
she was required to testify and gave approximately 5
hours of testimony in excruciating pain. The case was
continued and the de facto custodian eventually ended
up with surgery that had to be rescheduled multiple
times due to various complications, some of which
could be attributed to a delay in medical care. Eventu­
ally, the de facto custodian had surgery on March 13,
2017, experienced complications postoperatively and
was unable to appear for court on March 20, 2017. As
a result of de facto custodian failure to appear the Ken­
tucky Court held the de facto custodian in contempt of
court, and ruled a doctor’s statement as hearsay issu­
ing a bench warrant, one of many, for her arrest for
failure to appear.
The court then entered a second sua sponte order
on March 21, 2017, absent a hearing, findings of fact,
and rule of law, and in contravention of the Code of Ju­
dicial Conduct, granting temporary custody to the
birth mother. This was followed with additional orders
of March 22,2017, March 23,2017, and March 24,2017
where the court made clarifications to the March 21,
2017 order regarding toys and clothes of the children.
Interestingly, the maternal grandmother, Barbara

16
Stewart who lives in Georgia and had never partici­
pated in any court hearings was present in the court­
room on March 20, 2017. It was later discovered a
postdated fax (App. 64) was received on March 16,2017
at 20:03 at the children’s private school in Tennessee
from a public school in Kentucky requesting the chil­
dren’s school records. The maternal grandmother, dur­
ing a deposition taken on September 26, 2017,
acknowledged “I was asked to come,” (deposition page
9, line 16) by “my daughter,” (deposition page 9, line
18). When asked why, Ms. Stewart responded “Because
that was the day that she thought she might obtain
custody,” (deposition page 9, line 24-25). Given the fact
there was no pending order before the court, a fax re­
questing the kids’ school records was received five (5)
days in advance of the hearing, and the birth mother
made a call to have her mother come to assist with an
anticipated change in custody, it appears there was im­
proper communication of some type giving the birth
mother advanced knowledge that a future ruling
would be made in her favor by the Kentucky court.
This ruling of change in custody was immediately
appealed by the de facto custodian. The Kentucky
Court of Appeals remanded in part ordering the lower
court to hold a hearing which it did on May 19, 2017.
In the order, the Kentucky judge wrote multiple mis­
representations, including stating “there was no one
to take care of the children, she was afraid they would
go into foster care in Tennessee, and petitioner had no
status.” These statements were blatantly false and
the comment regarding petitioner’s standing was in

17
contravention of the court’s finding from May 15,2014,
the actions of petitioner acting as parent, and in con­
travention of the Agreed Order (App. 40), thus a viola­
tion of the 14th Amendment.
The custody case continued with multiple hear­
ings and rulings being entered in contravention of the
evidence presented in the case, and generally in favor
of the birth mother. Orders were written by the birth
mother’s attorney, Casey Hixson, which contradict
findings and include multiple misrepresentations in
an effort to manipulate the outcome of the custody
case. This manipulation included the court’s continued
denial of recognition of petitioner’s standing as such
recognition would substantially impact the birth
mother’s ability to retain custody.
F.

Petitioner’s Motion to Intervene

Petitioner, during the week of September 17,2018,
learned he qualified as a de facto custodian based on
him serving in the same capacity as his wife and based
on the Kentucky Court of Appeals clarification of “sin­
gle unit” (J.G. v. J.C.) as referenced in Krieger v.
Marvin, as de facto custodian under KEtS 403.270. Pe­
titioner, acting pro se, sought to intervene before the
custody hearing which was scheduled for October 12,
2018. During a hearing on September 28, 2020 the
Court denied his request stating it is “too late” and
would “cause a delay in the proceedings,” essentially
shutting Petitioner down from further argument and
violating his due process rights as a de facto custodian.

18
In an effort to preserve his rights and the parentchild relationship he had established with the minor
children, petitioner filed a Motion for Emergency In­
termediate Relief pursuant to CR 76.36(4) Filed Sim­
ultaneously With Original proceeding for writ of
prohibition/mandamus pursuant to CR 76.36(1) with­
out a written order from the lower court.
The order resulting from the September 28, 2018
hearing was not written by the lower court until Octo­
ber 9, 2018. (App. 18) Interestingly, the Kentucky
Court of Appeals rendered a denial on October 8, 2018
(App. 20) referencing the non-existent, forward related
order from the lower court. This action gives the ap­
pearance of ex-parte communications between the
courts.
Petitioner, in his Petition for Writ of Prohibi­
tion/Mandamus submitted on October 8, 2018, chal­
lenged the lack of jurisdiction of the original decree
court. That subject matter jurisdiction cannot be
waived, and that it may be challenged at any time,
even initially on appeal, is an elementary principle of
law. Duncan v. O’Nan, Ky., 451 S.W.2d 626 (1970). The
Kentucky Court of Appeals upheld the denial of the
emergency petition ruling that Kentucky had jurisdic­
tion based on the UCCJEA and precedent of Williams
v. Bittle. The Kentucky Court of Appeals also stated pe­
titioner was without standing and entered the order
(App. 13). Petitioner, appealed as a matter of right to
the Kentucky Supreme Court. Petitioner also submit­
ted motions to the Kentucky Supreme Court to correct
the lower court records and submit a copy of the initial

19
trial transcript in support of his motion. The Court
passed on the merits (App. 11) and upheld the Court of
Appeals decision based on Williams v. Bittle. The Ken­
tucky Supreme Court, in contravention of the Code of
Judicial Conduct did not address the use of the forward
related order by the appellate court judge. Petitioner
filed for rehearing; however, the Kentucky Supreme
Court denied the rehearing on March 26, 2020. (App.
45)

REASONS FOR GRANTING THE PETITION
THIS COURT SHOULD GRANT REVIEW TO
ADDRESS THE CIRCUIT SPLIT CONCERNING
THE APPLICATION OF THE UCCJEA ACT
DURING AN ADOPTION, THE ASSOCIATED
VIOLATIONS OF FEDERAL LAW DURING
SUCH INCLUSION, TO CORRECT THE ABUSE
OF DISCRETION BY COURTS TO IMPACT A
FUNDAMENTAL RIGHT AND TO ADDRESS
THE APPEARANCE OF JUDICIAL MISCON­
DUCT
I.

THERE IS A SQUARE, ENTRENCHED, AND
OPENLY ACKNOWLEDGED CIRCUIT SPLIT
ON THE QUESTIONS PRESENTED

Prior to the passage of the UCCJA, the PKPA and
the UCCJEA, no uniform set of laws regarding inter­
state recognition of child-custody orders existed. As a
result, it was difficult for one state to recognize the
child-custody determination in another state, specifi­
cally when child-custody determinations entered by a

20

new state conflicted with the previous child-custody
determinations. As a result the very stability in the
rearing of a child was undermined.
With the revision of the UCCJA by the UCCJEA,
interstate jurisdiction controversies were reduced, spe­
cifically with the application of the PKPA which comes
into play during a modification of sister state order as
the PKPA supersedes the UCCJEA. The U.S. Supreme
Court has noted that a central purpose of the PKPA is
to extend the requirements of the full faith and credit
clause to custody determinations. In short, the PKPA
was intended primarily as a full faith and credit stat­
ute, {In re Adoption of Baby E.Z., 266 P.3d 702, 712
(Utah 2011).
The U.S. Constitution’s full faith and credit clause,
Article IV section 1, as well as the parallel federal stat­
ute, 28 U.S.C. 1738, is understood to oblige states to
recognize and enforce a sister state’s final judgment
and prevent the relitigation of a case. Interestingly the
applicability of the full faith and credit clause as it ap­
plies to adoption decrees has been largely ignored. Ac­
cordingly, it is proper for the U.S. Supreme Court to
provide guidance as some circuits are split on this mat­
ter of application of the UCCJEA during an adoption
as the UCCJEA act itself expressly and unambigu­
ously excludes adoptions.
Some states such as Oklahoma have determined
the UCCJEA does not cover termination of parental
rights due to adoption proceedings, reasoning that the
UCCJEA explicitly excludes adoption proceedings. The

21
Utah Supreme Court, in holding that the PKPA ap­
plied to adoption proceedings reasoned:
The PKPA defines “custody determination”
broadly, as “a judgment decree, or other order
of a court providing for the custody of a child,
and includes permanent and temporary or­
ders, initial orders and modifications.” And
the PKPA defines “physical custody” as “ac­
tual possession and control of the child.” Read­
ing the phrase “any proceedings for custody
determination” together with the definitions
of “custody determination” and “physical cus­
tody” we conclude that the phrase “any pro­
ceeding for a custody determinate” includes
all proceedings that establish who will have
“actual possession and control of a child.” In
light of this conclusion, adoption proceedings
fall within the “nay proceeding for a custody
determination” provision of the PKPA, (In re
Adoption of Baby E.Z., 266 P.3d 702, 712
(Utah 2011).
Other states such as Tennessee and Kentucky,
despite adoptions being excluded in the UCCJEA act
itself as well as the codified version of both state
statutes, holds the UCCJEA applies. In this case
Nelson v. Sharp, the Kentucky Courts have based their
determination on Williams v. Bittel, 299 S.W.3d 284
(Ky.App.2009). Arguing over a child in Williams were
the boyfriend of the deceased mother (“Bittel”) and the
decedent’s sister and brother-in-law (“the Williamses”).
The child was born in Kentucky, and a Kentucky court
awarded Bittel and the Williamses joint custody of the

22

child. The Williamses were designated the primary
residential custodians with liberal visitation given to
Bittel. Eventually, the Williamses moved to Georgia
where they adopted the child. Before the adoption, the
custody orders in Kentucky were still in effect. The
UCCJEA in effect in Kentucky also exempted adop­
tions from its provisions.
The Kentucky court in Williams v. Bittel deter­
mined that Kentucky retained the exclusive, continu­
ing jurisdiction over the custody orders as long as
Bittel resided in Kentucky and maintained a signifi­
cant relationship with the child. Williams v. Bittel, 299
S.W.3d at 288. Therefore, the Kentucky court recog­
nized that despite the language of the UCCJEA ex­
cluding adoptions from its provisions, Kentucky still
retained exclusive, continuing jurisdiction over cus­
tody cases that originated in its jurisdiction. The court
observed that jurisdiction “includes the discretionary
power to decline to exercise jurisdiction and defer to a
more convenient forum.” Id. The Kentucky court also
noted:
The Williamses successfully circumvented the
spirit of the law. Their actions create the pre­
cise problems that the UCCJEA and the
PKPA attempted to avoid: viz., interstate cus­
tody disputes and competition.
The Kentucky court further recognized that the prob­
lem of stepparent adoption and pending custody ac­
tions in different states needs to be corrected and
stated, “This loophole cannot be closed by our Court,
only by legislative action.” Id.

23

Given this “loophole” and this statement by an Ap­
pellate Court, it is proper for the US Supreme Court to
provide the requested guidance, otherwise, this issue
of jurisdictional conflict during adoptions will con­
tinue.
II.

THE KENTUCKY SUPREME COURT’S DE­
CISION IS ERRONEOUS. THE KENTUCKY
SUPREME COURT’S DECISION CONTRA­
VENES THE CONSTITUTIONAL FUNDA­
MENTAL RIGHTS OF THE PARTIES AND
FAILS TO RECOGNIZE THE LOSS OF
SUBJECT MATTER JURISDICTION

The case at bar differs from Williams v. Bittle; spe­
cifically, the natural parents had relinquished their
superior parental rights when they placed the minor
children to live with Petitioner and his wife when the
children were only weeks old. This is their “fundamen­
tal right.” There was an Agreed Order to transfer sole
permanent custody of the children to Petitioner and
his wife, which is a constitutionally protected right un­
der the 14th Amendment. There was no provision
within the Agreed Order for the children to ever be re­
turned to the custody of their parents even if the birth
mom changed her mind. In fact, the family unit be­
tween the children and the Petitioner and his wife was
the only family the children had ever known for a pe­
riod of over 5 years. The family unit provided stability,
and full support of the children, financially, emotion­
ally, in every way. An emotional attachment between
the de facto custodians and the children was in place.

24
The de facto custodians, who are given equal standing
under the Kentucky statutes (KRS 403.270(l)(b)), had
a constitutional right to legitimize their relationship
under the 1st and 14th Amendments. One of the natu­
ral parents consented to the adoption and notice was
given to the other natural parent regarding their due
process rights. It was therefore an intrusion of the ju­
diciary to interfere with this adoption under the guise
of the UCCJEA act and the codified version of the
UCCJEA under state law, when adoptions are ex­
cluded, and to attempt to relitigate a visitation issue
already adjudicated in the sister state during the pen­
dency of the adoption.
Under the due process clause and full faith and
credit clause these parties are entitled to proceed with
a petition for adoption. The judiciary recognizes the
mobility of families and the application of the PKPA,
thus while the PKPA typically replicates the UCCJEA
giving jurisdictional preference to the home state, the
PKPA allows modifications within certain parameters
and thus supersedes the UCCJEA. 28 U.S.C.A. § 1738A
(PKPA). The PKPA states “A court may modify a cus­
tody or visitation order from another state only if (1) it
has jurisdiction to do so, and 2) the court of the initial
state no longer has jurisdiction or has declined to exer­
cise it.” 28 U.S.C.A. § 1738A. Tennessee clearly had ju­
risdiction to preside over an adoption. Kentucky lost
subject matter jurisdiction due to the state residency
requirement (KRS 199.470(1)) and thus could not pre­
side over the adoption. Tennessee was the only state
with both personal and subject matter jurisdiction and

25

the only jurisdiction in which the de facto family could
petition for an adoption. They should not be required
or expected to have to relocate back to Kentucky to
comply with the residence requirement under KRS
199.470(1) to adopt the children.
The Kentucky court allowed the de facto custodi­
ans to relocate with the children finalizing all litiga­
tion in Kentucky. Once the children were out of the
state for more than six months, the subject matter ju­
risdiction of the original home state to proceed over an
adoption pursuant to KRS 199.470(1) no longer ex­
isted. The only state having subject matter jurisdiction
for the purposes of adoptions was Tennessee. When
Tennessee exercised exclusive continuing jurisdiction
as permitted under the subsections of the PKPA which
superseded the UCCJEA, and in accordance with their
codified UCCJEA state statues, and adoption code,
Kentucky lost all jurisdiction including personal and
subject matter jurisdiction. Without jurisdiction Ken­
tucky had no jurisdiction to rehear any issues, but spe­
cifically the visitation issue which had already
adjudicated in Tennessee and which is prohibited un­
der the constitution. Judgments from courts that do
not have subject-matter jurisdiction are void, ('Weller v.
Weller, 960 P.2d 493, 496 (Wyo. 1998). Accordingly, all
orders issued from Kentucky beginning with the Sua
Sponte Order of June 8, 2016 and thereafter are void.

26

III. THE KENTUCKY SUPREME COURT’S DE­
CISION IS ERRONEOUS. THE ACTIONS
OF THE KENTUCKY COURT CONTRADICT
FAIR PLAY AND SUBSTANTIAL JUSTICE
Generally, to comply with the Due Process Clause
of the 14th Amendment of the U.S. Constitution, a
court needs to comply with “traditional notions of fair
play and substantial justice.” Int’l Shoe Co. v. State of
Wash., Office of Unemployment Comp & Placement,
326 U.S. 310, 316 (1945). Judges must follow the law
under the Code of Conduct.
In the case at bar, the court failed to follow the law.
The UCCJEA excludes adoptions. To apply the
UCCJEA to an adoption is a judge making law as op­
posed to following legislative intent, especially when
the language is unambiguous. There is evidence to sug­
gest deviation from the adherence of the law, bias and
the existence of ex-parte communications or other ne­
farious relationship between birth mom’s counsel Ca­
sey Hixson and the lower court judge as evidenced by
the Response to the Kentucky Supreme Court on June
17,2019. (App. 47) The sua sponte order of June 8,2016
(App. 27) which contains opinions that contradict pre­
vious findings of the court, the fax (App. 64) received
at the children’s private Tennessee school in advance
of the March 21, 2017 sua sponte temporary custody
order (App. 25) which was conducted without a hear­
ing, findings of fact or rule of law, coupled with the sud­
den appearance of a maternal grandmother in the
courtroom because her daughter told her she was get­
ting custody could not possibly be coincidental. Addi­
tional irregularities have occurred throughout this

27

case making it impossible to list all within the param­
eters of this petition.
The use of a forward related order (App. 20) by the
Kentucky Court of Appeals prior to the issuance of the
order by the lower court (App. 18) degrades the integ­
rity of the judiciary in contravention of the Code of
Conduct. These acts simply cannot stand; therefore, it
is incumbent upon this Court to exercise Judicial Over­
sight to address these areas of concern as the highest
court in the Commonwealth of Kentucky has chosen to
ignore or turn a blind eye to this type of conduct.

CONCLUSION
This case presents the appropriate opportunity for
the Court to provide guidance to multiple circuits
across the entire United States, regarding the correct
process to ascertain correct jurisdiction for an adoption
proceeding based on federal law and the application of
the UCCJEA to an adoption when it is specifically and
statutorily excluded.
This case also allows this Court, by exercise of its
supervisory power, to correct the appearance of a bi­
ased judiciary which has engaged in numerous in­
stances of misconduct, at all levels of the original
decree state judiciary.
The petition for a writ of certiorari should be
granted to reverse and vacate all orders issued from
the original decree state beginning with the Sua

28

Sponte order of June 8,2016 and all subsequent orders
and intervening decisions simultaneously setting
aside the order of dismissal of the adoption in the sis­
ter state to preserve the proper administration of jus­
tice.
Respectfully submitted,
Jerry W. Wells (pro se)
P.O. Box 159175
Nashville, TN 37215
270-392-0461
welljw@aol.com
August 24, 2020

